              U.S. GeNnrut SrRvrcrs AplttNlstnertoru
              Office of Inspector General




March6,2007

MEMORANDUMFORJAMESA. WILLIAMS
             COMMISSIONER
                                                              (Q)
                                                          SERVICE
                      n-,,' i; "t .****
                      ryt           faY*tIoN
FROM:                               MCGOWAN
                      G\I&bIDOLYNruSi
                            ASSISTANTINSPECTORGENERALFOR
                      TNFORMATIONTECHNOLOGYAUDITS (JA-T)

                      fr*lrrU /tuf#".
                      KENNETHL. CROMPTON
                      DEPUTYASSISTANTINSPECTORGENERALFOR
                      ACQUISITIONAUDITS (JA-A)

SUBJECT:                                  GSA'SELECTRONIC
                      REVIEWOF EOFFER/EMOD.
                      CONTRACTPROPOSALAND MODIFICATIONSYSTEM
                                          lTlP07002
                      REPORTNUMBERA060149/Q

The attachedsubject audit report presentsthe results of our review of GSA's system for
electroniccontractproposaland modification--eOffer/eMod.  Thesetwo importantweb-based
applicationswerelaunchedin mid-2004andcurrently   allow companies  to electronicallyprepare,
submit, and modiff contract proposalsfor select Multiple Award Schedules.Our review
identifiesareaswhereimprovementsareneededto ensuresuccessfuloperationsfor the system,
includingachievementof FAS goalsto createan interactive,secureeleatronicenvironmentthat
simplifiesthe contractingprocess.We met with your staff on December2I, 2006to discuss
issuesraised during this review including low systemutilization rates and weaknesses   with
importantmanagerial,operational,  and technicalcontrols,including system  security controls.
You have concurredwith our findings and recommendations    for improving eOffer/eMod,and
have noted improvementactions underway. This report includes a ManagementResponse
section, which summarizesyour written commentsto the draft report and a copy of the
comments   you'veprovidedis includedin AppendixB.

In accordancewith GSA Order ADM P 2030.2C,a time-phasedaction plan to specifically
addressthe reportrecommendations   andthe Management DecisionRecordis requiredwithin 60
days of the report date. The time-phasedaction plan and completedSection B of the
ManagementDecision Record should be submittedto the Assistant InspectorGeneralfor
Auditing (JA), with a copyto the Audit Follow-upandEvaluationBranch(BECA).

It is importantthat the final actionsand all managementdecisionsrespondingto the report be
completedwithin 12 monthsof the audit report issuedate. Otherwise,the Office of Inspector
Generalmust identify in its SemiannualReportto Congressthe matterson which final actions
                   24118th StreetS.,CS4,Suite 607,Arlington, VA 22202-3402
                                             D*
                        FederalRerycling Program         rri"t"a on RerycledPaoer
                                                   {r!
havenot beencompletedwithin this timeframe. As such,to the maximumextentpossible,your
time-phasedactionplan shouldscheduleactionsto be completedwithin 12 monthsof the report
issuedate. To help us improveour customerservice,we have attacheda CustomerSatisfaction
Surveydevelopedto obtain feedbackregardinghow the report and relatedaudit servicesmeet
customerexpectations.We requestthat the primaryuserof this reportcompletethe questionnaire
andreturnit to the Director,Audit OperationsStaff (JAO) in the envelopeprovided. I appreciate
the courtesiesand assistanceprovidedby you and your staff during our review. Shouldyou have
any  questions,or if you would like to discussany aspectof the report in greaterdetail, please
contactme or DonnaPeterson-Jones,   Audit Manager,on (703) 308-1223.

Attachments
 REVIEW OF EOFFER/EMOD,GSA'SELECTRONIC
CONTRACTPROPOSALAND MODIFICATION SYSTEM
     REPORTNUMBER A060149/Q/TIP07002
              U.S. GeNener Snnvrcrs AunalMsrnattoN
              Office of Inspector General



Date:         March6,2007

Replyto       DeputyAssistantInspectorGeneralfor
Attn of:      InformationTechnologyAudits (JA-T)

              DeputyAssistantInspectorGeneralfor
              AcquisitionAudits (JA-A)

To:           JamesA. Williams
              Commissioner, FederalAcquisitionService(Q)

Subject:                          GSA'sElectronic
              Reviewof eOffer/eMod,
                             and
              ContractProposal  ModificationSystem
              ReportNumberA060149/Q lTlP07002

This report presentsthe results of our review of the eOfferieMod web-based applications that
allow companies to electronically prepare and submit contract proposals and contract
modifications under the General Services Administration's Multiple Award Schedules(MAS)
program.

The General Services Administration launched eOffer and eMod as the paperless means to
streamline the contract award and modification process in May and July of 2004, respectively.
Our review found that both proposals and modification requests for MAS contracts are still
primarily being submitted on paper rather than electronically through eOffer/eMod. Though the
number of electronic offers and modifications submitted by vendors has increasedover the last
three years, overall utilization rates for these two important web applications remain low.
Although one goal for eOffer was to reduce the amount of time involved in making contract
awards, contract awards made through electronic offers are taking longer to processthan awards
made on paper offers. Specific performance measures for eOffer/eMod needed to assess
customer satisfaction or overall system performance have not yet been established. Currently,
justification and important planning information for eOffer/eMod is contained in the Fiscal Year
 2004-2007 Exhibit 300 businesscasesfor the Federal Supply Service-l9 system. We also
 identified that specific web application security risks were not adequately considered prior to
 system deployment. While specific technical security controls have improved, security
 management for eOffer/eMod needs to be strengthenedin response to the reported security
 vulnerabilities. Specifically,a comprehensiveCertification and Accreditationprocessto verify
 the adequacyof system security controls for eOffer/eMod and e-authenticationrisk assessment
 activities are not yet completed. Immediate attention to each of these risk areas is needed to
 improve usagerates, system functionality, and security for system resources. Written comments
 provided by your office have been included in their entirety in Appendix B.




                    241 18th StreetS.,CS4,Suite 607,Arlington, VA 22202-3402

                          F'ederalRerycling Program
                                                      @   Printed on RecycledPaper
This audit approachwas an integratedplanningandreportingeffort betweenthe JA-T andJA-A
audit offices. I wish to expressmy appreciationto all of your staff and other personswho
cooperatedduring the audit. If you have any questions,pleasecontact me or Gwendolyn
McGowan,the DeputyAssistantInspectorGeneralfor InformationTechnologyAudits, on 703-
308-1223or Kenneth L. Crompton,the Deputy AssistantInspectorGeneralfor Acquisition
Audits,on 703-603-01 89.
cN, 0 0f          n-
      f, k),trw*Ptvtr
\C0TrlAo,
DonnaP.Peterson-Johes
Audit Manager
InformationTechnologyAudit Office (JA-T)
                    REVIEW OF EOFFER/EMOD, GSA’S ELECTRONIC
                  CONTRACT PROPOSAL AND MODIFICATION SYSTEM
                        REPORT NUMBER A060149/Q/T/P07002

                                           TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................i

INTRODUCTION ..........................................................................................................1

        Objectives, Scope, and Methodology ...................................................................2

RESULTS OF AUDIT ...................................................................................................4

        Utilization of eOffer/eMod Remains Low ............................................................4

        Reduced Time for Processing Contract Awards
        May Not Be Achieved with eOffer .......................................................................7

        System Specific Performance Goals and Measures Needed.................................8

        Continued Improvements Needed to Maintain System Security ..........................9

            Key Security Steps Not Completed ..................................................................9

            Web Application Security Controls Not Adequately Considered ....................10

CONCLUSION...............................................................................................................11

RECOMMENDATIONS................................................................................................11

MANAGEMENT RESPONSE ......................................................................................12

INTERNAL CONTROLS ..............................................................................................12

APPENDICES

        eOffer/eMod Timeline of Select Activities...........................................................A-1

       GSA FAS Response to Draft Report .....................................................................B-1

       Report Distribution ................................................................................................C-1
                    REVIEW OF EOFFER/EMOD, GSA’S ELECTRONIC
                  CONTRACT PROPOSAL AND MODIFICATION SYSTEM
                        REPORT NUMBER A060149/Q/T/P07002

                                   EXECUTIVE SUMMARY

Purpose

Under the General Services Administration’s (GSA) Schedules Program, GSA establishes long-
term government wide contracts that allow customers to acquire a vast array of supplies and
services directly from commercial suppliers. To become a GSA Schedule contractor, a vendor
must first submit an offer in response to the applicable solicitation. eOffer is a web-based
application that allows companies to electronically prepare and submit a contract proposal to the
Multiple Award Schedules (MAS) program. eMod is a web-based application that allows MAS
contractors to electronically prepare and submit modifications for existing MAS contracts. The
objective of this review was to determine: Are eOffer/eMod realizing expected benefits,
including delivery of functional, managerial, and user requirements for the system? Have
sufficient security controls been designed and implemented with eOffer/eMod? If not, what
improvements are needed to better manage risk with the system?

The GSA Federal Supply Service (FSS) and the Federal Technology Service has reorganized and
the two services have been merged into the new Federal Acquisition Service (FAS), effective
October 12, 2006. This report addresses findings and recommendations to the Commissioner of
FAS for improving eOffer/eMod.

Background

The eOffer/eMod web-based applications allow companies to electronically prepare and submit
contract proposals (offers) and current MAS contract holders to prepare and submit contract
modifications. The purpose of eOffer is to create an interactive, secure electronic environment
that simplifies the contracting process from submission of proposal to award of contract. The
purpose of eMod is to streamline and expedite the modification process and to create an
electronic modification file.         Both applications can be accessed via the web at
http://eoffer.gsa.gov. Vendors submitting offers and/or modifications are able to sign
electronically using digital certificates to create a legally binding electronic contract. Currently,
eOffer is available for use on five Multiple Award Schedules: Schedule 70 (Information
Technology), Schedule 520 (Financial and Business Solutions), Schedule 541 (Advertising and
Integrated Marketing Solutions), Schedule 871 (Professional Engineering Services), and
Schedule 874 (Mission Oriented Business Integrated Services). Contracting officers/contract
specialists (contract professionals) access electronic offers (e-offers) submitted by vendors via
the Offer Registration System, a module of FSS-19. eMod is used by MAS vendors to make
modifications to their existing contracts and covers all types of MAS contracts. The electronic
modifications submitted by vendors are accessed by contract professionals via a module of the
FSS-19 system. The three GSA acquisition centers that accept e-offers include: the IT
Acquisition Center – Arlington, VA; the Services Acquisition Center – Arlington, VA; and the
Management Services Center – Auburn, WA.



                                                  i
The E-Government Act of 2002 requires Federal agencies to implement electronic signature
capability for secure electronic transactions with the government via the E-Authentication
initiative. This initiative is intended to provide the critical service of determining that
individuals are who they claim to be when conducting electronic transactions with the Federal
Government by leveraging existing identity credentials. The initiative is intended to help
minimize redundant solutions for the verification of identity and electronic signature
requirements for electronic transactions across government. eOffer/eMod is the first system
within GSA to use the E-Authentication framework. The GSA Office of Inspector General
conducted a review of the E-Authentication initiative in Fiscal Year (FY) 20041. A timeline of
other select eOffer/eMod related activities is provided in Appendix A.

Results-in-Brief

GSA launched eOffer and eMod as the paperless means to streamline the contract award and
modification process in May and July of FY 2004, respectively. However, both proposals and
modification requests for MAS contracts are still primarily being submitted on paper rather than
electronically through eOffer/eMod. Though the number of electronic offers and modifications
submitted by vendors has increased over the last three years, overall utilization rates for these
two important web applications remain low. One of the goals for eOffer is to reduce the amount
of time involved in making contract awards. Contrary to expected system benefits associated
with streamlined contract award processes, contract awards made on electronic offers are taking
longer to process than awards made on paper offers. Currently, justification and important
planning information for eOffer/eMod is contained in the FY 2004-2007 Exhibit 300 business
cases for the FSS-19 system. However, specific performance measures for eOffer/eMod needed
to assess customer satisfaction or overall system performance have not yet been established. Our
review found that specific web application security risks were not adequately considered prior to
system deployment. While specific technical security controls have improved, security
management for eOffer/eMod needs to be strengthened in response to the reported security
vulnerabilities. Specifically, a comprehensive Certification and Accreditation (C&A) process to
verify the adequacy of system security controls for eOffer/eMod and e-authentication risk
assessment activities are not yet completed. Immediate attention to each of these risk areas is
needed to improve usage rates, system functionality, and security for system resources, including
sensitive data maintained in eOffer/eMod. Taking necessary and important steps to ensure
improvements with eOffer/eMod at this time is critical to assist GSA in ongoing efforts to reduce
contract award cycle times for the MAS program.

Recommendations

We recommend that the Commissioner, Federal Acquisition Service, with the assistance of
appropriate personnel responsible for eOffer/eMod, take the following actions:

    1. Closely analyze eOffer/eMod usage rates and develop strategies to address the causes of
       low usage.


1
 Review of Federal Technology Service E-Authentication Initiative Report Number A040039/O/T/F04018,
September 30, 2004.


                                                     ii
   2. Address system and process concerns raised by contract professionals to improve
      electronic offer processing times and ensure that the system addresses evolving agency
      needs and requirements.

   3. Develop an eOffer/eMod business case or update the FSS-19 business case to include
      system specific performance goals and measures for monitoring actual performance
      compared to expected results.

   4. Ensure that system security controls are maintained to include:
         a. Completion of the eOffer/eMod Certification and Accreditation (C&A) in
             accordance with GSA CIO IT Security Policy and procedures.
         b. Documentation for key security decisions and processes related to the system.
         c. Development of a proactive approach for identifying and addressing web
             application security weaknesses.


Management Response

We met with Federal Acquisition Service (FAS) personnel responsible for eOffer/eMod,
including the Director of the Contract Management Center (FXC) and the FAS Chief
Information Officer to discuss the results of our review and received updated information prior to
issuing the draft report. We have also received written comments from the Commissioner of
FAS, which are provided in Appendix B. We have carefully considered all comments provided
by FAS with this report and the FAS Commissioner has concurred with the findings and
recommendations presented. Written comments provided by the FAS Commissioner indicate
that FAS will take actions aimed at addressing the risk areas identified for this system. Ongoing
or planned management actions to address risks include FAS: (1) embarking on corrective
strategies, including monitoring use, obtaining customer feedback, and increasing employee
training, (2) improving the communication process between systems personnel and the
acquisition centers, (3) developing a business case to determine appropriate shared performance
measures for eOffer/eMod, and (4) completing the eOffer/eMod Certification and Accreditation
(C&A) and other security controls.




                                                iii
                     REVIEW OF EOFFER/EMOD, GSA’S ELECTRONIC
                   CONTRACT PROPOSAL AND MODIFICATION SYSTEM
                         REPORT NUMBER A060149/Q/T/P07002


                                          INTRODUCTION

The General Services Administration (GSA) has recognized a complete paperless solicitation-
contracting environment as one of its business goals. In May and July of Fiscal Year (FY) 2004,
GSA Federal Supply Service (FSS) launched eOffer/eMod as a component of the FSS-19
system. eOffer/eMod are Internet web-based applications that allow companies to electronically
prepare and submit multiple award schedule (MAS) contract proposals (offers) and current
contract holders to prepare and submit contract modifications. These web applications were
developed as part of a task order for the FSS-19 system under an existing Applications
Maintenance and Enhancements Blanket Purchase Agreement with Unisys.                 Vendors are
required to have a digital certificate to use eOffer/eMod, which enables the system to produce an
electronic signature to create a legally binding contract agreement. eOffer/eMod utilizes a step-
by-step procedure to ensure that offers and modifications contain information required under
FSS solicitations. A primary objective for the eOffer system is to provide an interactive, secure
electronic environment that simplifies the contracting process from submission of proposal to
award of contract and to enable a seamless transmission of data from the vendor community to
the Federal Acquisition Service (FAS) contracting offices. eMod allows MAS contractors to
electronically prepare and submit contract modifications to FAS. The intent with eMod is to
streamline and expedite the modification process for existing MAS contracts and to create an
electronic modification file.        Vendors can access both eOffer and eMod online, at
http://www.eoffer.gsa.gov. Contracting officers/contract specialists (contract professionals)
access and review electronic offers (e-offers) and modifications (e-mods) submitted by vendors
via the FSS-19 system. While all GSA acquisition centers can modify existing MAS contracts
with data provided through e-mods, currently only three GSA acquisition centers accept e-offers
from vendors. The centers that accept e-offers include: the IT Acquisition Center - Arlington,
VA; the Services Acquisition Center - Arlington, VA; and the Management Services Center -
Auburn, WA.

The E-Government Act of 2002 requires Federal agencies to implement electronic signature
capability for secure electronic transactions with the government. The Federal E-Authentication
initiative is intended to provide the critical service of determining that individuals are who they
claim to be when conducting electronic transactions with the Federal Government by leveraging
existing identity credentials. The establishment of the E-Authentication initiative is intended to
help minimize redundant solutions across government for the verification of identity and
electronic signature requirements for electronic transactions. eOffer/eMod is the first application
of the Federal E-Authentication initiative within GSA. The GSA Office of Inspector General
completed a review of the E-Authentication initiative in FY 20042. We also included



2
 Review of Federal Technology Service E-Authentication Initiative Report Number A040039/O/T/F04018,
September 30, 2004.


                                                     1
eOffer/eMod in our FY 20053 annual evaluation of IT security controls required for the Federal
Information Security Management Act (FISMA) review. A timeline of other select eOffer/eMod
related activities is provided in Appendix A.

Objectives, Scope, and Methodology

Our overall objective for this review was to determine: Are eOffer/eMod realizing expected
benefits, including delivery of functional, managerial, and user requirements for the system?
Have sufficient security controls been designed and implemented with eOffer/eMod? If not,
what improvements are needed to better manage risk with the system?

We interviewed senior management officials within FAS/FSS and analyzed key documentation
for the FSS-19 system and for eOffer/eMod. We met with and obtained information from the
FAS Chief Information Officer (CIO); the Director of the Contract Management Center; Unisys
Project Manager for eOffer/eMod; GSA Project Manager for eOffer/eMod; the Division Director
of the Systems Management Center; eOffer/eMod helpdesk personnel in the Systems Support
Division; the Deputy Program Manager - E-Authentication in the Office of the Commissioner;
the Senior Assistant General Counsel of the Personal Property Division; the Information System
Security Manager for eOffer/eMod; and the Information System Security Officer for
eOffer/eMod. We also interviewed 16 contract professionals at three acquisition centers that
support MAS contracts through eOffer: the IT Acquisition Center – Arlington, VA; Services
Acquisition Center – Arlington, VA; and Management Services Center – Auburn, WA.

We also reviewed the eOffer/eMod website, system user guides, and training materials to gain an
understanding of the applications. We obtained user views on eOffer/eMod by reviewing user
satisfaction surveys completed by eOffer/eMod vendors and internal eOffer/eMod surveys
completed by contract professionals within FSS. We analyzed FY 2004-2007 Exhibit 300
business cases for the FSS-19 system that included eOffer/eMod. We analyzed the eOffer
System Security Plan, dated April 2004 and the FSS-19 Certification and Accreditation package,
dated June 2004. We analyzed the FSS Applications Maintenance and Enhancements Blanket
Purchase Agreement under which eOffer/eMod were developed. We also analyzed cycle times
for award processing times and number of electronic offers and modifications. We performed a
limited scope assessment of web application security controls for eOffer/eMod during this audit
to determine the adequacy of remediation of publicly disclosed vulnerabilities.

We considered applicable Federal laws, regulations, and policies including: Office of
Management and Budget (OMB) Circular No. A-130, Appendix III, Security of Federal
Automated Information Resources, revised November 2000; OMB Circular No. A-11, Part 7,
Planning, Budgeting, Acquisition, and Management of Capital Assets, June 2005; the GSA
Information Technology (IT) Security Policy, CIO P 2100.1C, February 2006; National Institute
of Standards and Technology (NIST) Special Publication 800-18, Guide for Developing Security
Plans for Information Technology Systems, February 2006; NIST Special Publication 800-53,
Recommended Security Controls for Federal Information Systems, February 2005; GSA
Information Technology (IT) Capital Planning and Investment Control, CIO 2135.1, June 2002;

3
 FY 2005 Office of Inspector General FISMA Review of GSA’s Information Technology Security Program Report
Number A050174/O/T/F05024, September 21, 2005.


                                                    2
GSA Information Technology (IT) Capital Planning and Investment Control, CIO 2135.2A,
September 2006; the Government Performance Results Act of 1993; the e-Government Act of
2002; the Government Paperwork Elimination Act, October 1998; the Paperwork Reduction Act
of 1995; and applicable Federal Acquisition Regulations and General Services Acquisition
Manual (GSAM) regulations.

We performed our audit work between March 2006 and October 2006 in accordance with
generally accepted government auditing standards. The audit was managed under an integrated
audit approach being piloted by the Information Technology (IT) Audit Office (JA-T) and the
Acquisition Program Audit Office (JA-A). Audit work was primarily performed at FSS
headquarters in Arlington, Virginia.




                                             3
                                    RESULTS OF AUDIT

The eOffer/eMod web applications were initiated in FY 2004 as a paperless means to streamline
GSA’s contract award and modification process in support of GSA’s schedules program.
However, both proposals and modification requests for MAS contracts are still primarily being
submitted on paper rather than electronically through eOffer/eMod. Though the number of
electronic offers and modifications submitted by vendors has increased over the last three years,
overall utilization rates for these two important web applications remain low. One of the goals
for eOffer is to reduce the amount of time involved in making contract awards. Contrary to
expected system benefits associated with streamlined contract award processes, contract awards
made on electronic offers are taking longer to process than awards made on paper offers.
Currently, justification and important planning information for eOffer/eMod is contained in the
FY 2004-2007 Exhibit 300 business cases for the FSS-19 system. However, specific
performance measures for eOffer/eMod needed to assess customer satisfaction or overall system
performance have not been established. Our review found that specific web application security
risks were not adequately considered prior to system deployment. While specific technical
security controls have improved, security management for eOffer/eMod needs to be strengthened
in response to the reported security vulnerabilities. Specifically, a comprehensive Certification
and Accreditation (C&A) process for eOffer/eMod and e-authentication risk assessment
activities are not yet completed. Immediate attention to each of these risk areas is needed to
improve usage rates, system functionality, and security for system resources, including sensitive
data maintained in eOffer/eMod. Taking necessary and important steps to ensure improvements
with eOffer/eMod at this time is critical to assist GSA in ongoing efforts to reduce contract
award cycle times for the MAS program.

Utilization of eOffer/eMod Remains Low

Although GSA has implemented eOffer/eMod as the paperless means to streamline the contract
award and modification process, most MAS proposals and modification requests are still being
submitted on paper rather than electronically, through these web-based applications as expected.
GSA has spent over $10 million to develop and maintain eOffer/eMod over the last three years.
eOffer is available for use by vendors for only five out of 42 total Multiple Award Schedules:
Schedule 70 (IT Solutions), Schedule 520 (Financial and Business Solutions), Schedule 541
(Advertising and Integrated Marketing Solutions), Schedule 871 (Professional Engineering
Services), and Schedule 874 (Mission Oriented Business Integrated Services). Though the
number of electronic offers and modifications submitted by vendors has increased, overall
system utilization rates remain low due to lack of acceptance by contracting professionals and
weak incentives to encourage vendors to submit electronic offers and modifications for schedules
contracts through eOffer/eMod. The following graphs illustrate the utilization rates for
eOffer/eMod for FY’s 2004, 2005, and 2006:




                                               4
                                   Graph A: Utilization Rates of eOffer vs. Paper MAS Contract Offers*


                                   3000


                                   2500
       Number of Offers Received




                                   2000
                                                                                                    Electronic
                                   1500                                                             Offers
                                                                                                    Paper Offers
                                   1000


                                    500


                                      0
                                           FY 04**       FY 05         FY 06
                                    *For select schedules utilizing eOffer
                                    **FY 04 data represents May-September 2004




Although the number of electronic offers through eOffer has increased steadily over the last three
years, on average, electronic offers comprise only 9% of all offers received since May 2004.
Graph A illustrates a comparison of paper and electronic offers received by the three GSA
acquisition centers that receive electronic offers through eOffer. While GSA intended to have
eOffer available for six more schedules by December 2006, a plan is not yet in place as to when
all 42 schedules will be available. According to FAS management, adding more schedules to
eOffer has been delayed due to a shift in priorities and resources resulting from GSA's plan to
expedite the MAS program contract award process. Not having all schedules available on eOffer
may be deterring vendors from conducting business with the government through electronic
transactions. In order to improve electronic submission of offers for the MAS program, FAS
plans to provide a total end-to-end electronic contracting process through implementation of the
Solicitation Writing System (SWS) within the FSS-19 environment. A July 2005 business case
analysis performed for the upcoming SWS stated that a favorable return on investment from the
FSS investment in eOffer has not been realized since eOffer cannot receive offers electronically
for all the solicitations. SWS is intended to support the President’s Management Agenda by
supporting the use of eBusiness technologies.            This new electronic process requires
standardization and automation of the solicitation component of the acquisition system to be able
to promote the integration of solicitation information between relevant existing acquisition
system modules, which includes eOffer. If successful, SWS would improve the supply chain
process by affording the federal agencies a faster receipt of goods and services in a more timely
and efficient manner by increasing the vendor responses via eOffer. With the utilization rates
being low and only five schedules available on eOffer thus far, GSA may not be realizing
enough benefit from eOffer to justify the cost.




                                                                                 5
                                              Graph B: Utilization Rates of eMod vs. Paper MAS Contract Modifications


                                             50000
          Number of Modifications Received   45000
                                             40000
                                             35000
                                             30000
                                                                                                     Electronic
                                             25000
                                                                                                     Modifications
                                             20000
                                                                                                     Paper
                                             15000
                                                                                                     Modifications
                                             10000
                                              5000
                                                 0
                                                     FY 04*    FY 05     FY 06
                            *FY 04 Data represents July-September 2004


Utilization rates for eMod remain low and have not kept pace with the increase in contract
modifications. While eOffer is available on a limited number of schedules, eMod is available for
use on all schedules. A careful analysis of implementation shortfalls for eMod is needed to close
the gap between electronic vs. paper MAS contract modifications. Although the number of
electronic modifications for existing MAS contracts has increased over the last three years, on
average, electronic modifications comprise only 4.5% of all modifications received since the
implementation of eMod. Graph B shows a comparison of paper and electronic modifications
received from July 2004 through FY 2006 at ten acquisition centers that process electronic
modifications submitted by vendors via eMod.

Though there has been an increase in the number of electronic offers and modifications
submitted by vendors since the system has been online, electronic offers and modifications
continue to represent a low percentage of overall offers and contract modifications received.
Interviews with 16 contract professionals and results of a FSS survey of contracting officers
conducted in October and November of 2005 indicate that contract professionals may not be
encouraging vendors to use eOffer/eMod. Lack of buy-in was apparent during our interviews
with contract professionals and some contract professionals stated that having incentives to
promote the use of eOffer/eMod would help them encourage the use of the applications by
vendors. According to the FY 2006 FSS-19 business case, an additional benefit of eOffer/eMod
is potential cost savings for other agencies as a result of more vendor choices and thus increased
competition leading to better pricing.          Further, eOffer/eMod supports the President’s
Management Agenda Financial Management Goal and was to result in cost savings realized by
the Government through the streamlining of the contract award process. Although eOffer/eMod
does streamline the contract award process, increased usage resulting from availability to more
vendors can further aid in achieving this financial management goal.




                                                                                 6
Reduced Time for Processing Contract Awards May Not Be Achieved with eOffer

Although eOffer was expected to streamline the MAS contract award process, awards made on
electronic offers through eOffer are taking longer to process than awards selected from paper
offers. The following data related to award processing times for electronic offers and paper
offers demonstrates that the goal has not been met with the system. Graph C illustrates that it is
taking longer for contract professionals to award contracts through eOffer than it is taking to
award contracts on traditional paper offers4. In FY 2005, the average time that it took to award
an MAS contract with proposals submitted on paper was 119 days and the average time to award
a contract via eOffer was 126.2 days. In FY 2006, the average award time for paper offers was
119.7 days, while the average award time for electronic offers was 154.3 days. Instead of seeing
a drop in processing times in the second full year of eOffer deployment, the average award time
to process electronic offers has increased by 28.1 days.

                                   Graph C: Average Award Times—eOffer vs. Paper Offers


                                   160
                                   140
    Average Award Time (in days)




                                   120
                                   100
                                    80                                                    Paper offers awards
                                                                                          eOffer awards
                                    60
                                    40
                                    20
                                     0
                                           FY 05        FY 06



In October 2005, FSS conducted an eOffer survey to obtain feedback from contract professionals
within the IT Acquisition Center. Thirty-two responses were received from contract
professionals who had processed an e-offer. Our analysis of the survey results found that some
contract professionals conveyed complaints from vendors about the system, desired additional
training, and wanted additional system enhancements to make the use of eOffer more seamless.
Our interviews with contract professionals who process electronic offers also identified a need
for system enhancements to assist them in processing electronic offers more efficiently and
reduce the contract award time. They conveyed that the system does not solicit enough
information from vendors to allow for contract professionals to adequately evaluate the
proposals. Some vendors submit only information that the system requires. However, eOffer
does not require vendors to submit specific documentation, which contract professionals need to
4
 Note that information on paper offers may not be as reliable as eOffer data, since it is manually entered and can be
manipulated.


                                                                           7
make a thorough evaluation of the proposal. For instance, eOffer does not prompt the vendor to
submit past performance information, the FSS schedule price list, corporate experience, and
executive summaries. Because contract professionals must follow-up with vendors to request
this type of information, electronic offers are not being processed in a time-efficient manner.

While feedback was solicited on the system from contract professionals during beta testing
conducted in April 2004, some contract professionals we interviewed also stated that system
shortfalls may have been avoided had they been more involved in the system development
process. Beta testing involved having vendors submit proposals through a beta system and ten
contract professionals from the IT Acquisition Center participated. The contracting officers
reviewed the documents and began mock negotiations with the contractor. The electronic
proposals were then taken to the signature process. A contract professional who participated in
the beta testing stated that the tests focused on verifying whether or not the system worked, but
did not consider how the system supports the contract professionals with evaluating and
processing MAS contract proposals. Consequently, more input from individuals that have an
understanding of the procurement process could have been beneficial during system
development and may have resulted in improved system functionality for electronic offer
processing.

Contract professionals raised specific concerns about having difficulty retrieving information
that is uploaded into eOffer by the vendors. In the paper process, GSAM 504.803 prescribes a
standard contract file format that is used to organize contract information. Paper files are
organized using 27 tabs to separate the documents by type. However, this organization standard
was not implemented with documents uploaded into eOffer. With eOffer, contracting staff can
access the vendor uploads that make up their proposal within the Offer Registration System
(ORS), a module of FSS-19. Each uploaded document is a separate link and contract
professionals have complained that there is no way to know what each link represents without
having to click on the link and open each document individually. GSA is currently developing
an electronic contract file that will organize contract information that is similar to the paper
process format. Contract professionals we spoke with stated they would benefit by having better
organization of the information within ORS that the vendors provide into eOffer or any future
enhancements to the application.

System Specific Performance Goals and Measures Needed

System specific performance measures for assessing customer satisfaction and overall goals for
eOffer/eMod are not in place to guide needed improvements and to ensure expected benefits are
achieved. Currently, eOffer/eMod is included in the OMB Exhibit 300 budget submission for
the FSS-19 system, and business cases for FY 2004 through FY 2007 state that FSS-19 supports
the goal of “Operating Efficiently and Effectively” by continuously enhancing automated
processes, such as those in eOffer/eMod, based on improvements to the internal processes and
user requirements. While the FY 2006 and FY 2007 business cases include the performance
improvement goal to reduce cycle time to process offers and contract modifications, they are not
system specific performance goals and measures sufficient to guide system operations and




                                               8
maintenance decisions. OMB budget procedures5 require that agencies institute performance
measures and management processes that monitor actual performance compared to expected
results. System performance measures are important because they can be used to measure
progress towards milestones in terms of cost and capability of the system and to help ensure that
the IT investment meets specified requirements.

The use of e-Authentication, which is an e-Gov initiative, makes the eOffer/eMod applications
important and gives them high visibility. eOffer/eMod are important applications needed to
carry out the vision of electronic contracting at GSA. Updated GSA policy6 on IT Capital
Planning and Investment Control states that during budget formulation, business cases will be
prepared for proposed major IT investments. The policy states that performance measures and
management processes that monitor and compare actual performance to planned results must be
instituted. High visibility applications like these should be considered major IT investments and
should have business cases that identify system specific performance measures and goals.
System goals should be specific enough to provide the means for evaluating the system’s
performance on a regular basis. For effectiveness, performance measures need to be tracked in a
manner that shows progress against the goal. Adequate performance measures could provide
management valuable information related to system performance and customer satisfaction.

Continued Improvements Needed to Maintain System Security

Web application security controls were not adequately considered prior to the implementation of
eOffer/eMod, and system security processes and documentation needed to ensure recently
improved controls are maintained remain incomplete. Further, the required certification and
accreditation process is not yet completed for these important applications and necessary e-
Authentication risk assessment activities have not been performed. Continued improvements in
these areas are needed to maintain system security and to ensure long-term success for
eOffer/eMod.

Key Security Steps Not Completed

Important security controls were not adequately addressed with the Certification and
Accreditation process completed for eOffer/eMod. Certification is a comprehensive assessment
of the management, operational, and technical security controls for an information system.
Accreditation is the official management decision of a senior agency official to authorize
operation of an information system and to explicitly accept any risk to agency operations, agency
assets, or individuals based on the implementation of an agreed-upon set of security controls.
eOffer/eMod began operations under an Interim Authority to Operate (IATO) that was
contingent upon key security steps to be completed within six months of the date of the letter,
April 2004. As part of the IATO, a System Security Plan was completed for eOffer/eMod in
April 2004, which indicated that rules of behavior have not been established to ensure that
system users are of aware of consequences for unauthorized actions. Informing users of the
consequences of unauthorized access can deter malicious use of the system. In June 2004,
eOffer/eMod was included as part of the FSS-19 system Certification and Accreditation package.

5
    OMB Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, June 2005.
6
    GSA Information Technology (IT) Capital Planning and Investment Control, CIO 2135.2A, September 2006.


                                                         9
However, with the FSS-19 Certification and Accreditation, key security steps identified in the
eOffer/eMod IATO were not completed. For example, the FSS-19 Contingency Plan was not
updated to include eOffer/eMod, the FSS-19 Risk Assessment was not updated to address threats
to eOffer/eMod, and rules of behavior have not yet been established for eOffer/eMod.

As part of our FY 2005 annual FISMA review7, we communicated specific system security
weaknesses for eOffer/eMod to system security officials with written management
correspondence conveyed in January 2006. During this timeframe a significant security incident
disrupted system operations for eOffer/eMod involving the unauthorized actions of a system
user. However, at the end of our review, the Certification and Accreditation of system security
controls for eOffer/eMod had not yet been completed in accordance with Agency IT Security
Policy and procedures. While FAS plans to complete a separate C&A for eOffer/eMod, it is
important that a process for maintaining adequate security be established quickly to ensure the
integrity, reliability, and availability for these important applications and to avoid potential
security incidents in the future.

GSA’s IT Security Policy requires that all information systems that allow authentication of users
for the purpose of conducting government business electronically must complete an e-
Authentication risk assessment. The Office of Management and Budget has issued guidance8 on
how to conduct e-Authentication risk assessments, stating that the purpose of an e-
Authentication risk assessment is to determine the appropriate assurance level for a system. The
National Institute of Security and Technology9 has developed a complementary e-Authentication
technical guidance that agencies must use to identify appropriate technologies for securing
Federal systems based on assurance levels. The first step in conducting an e-Authentication risk
assessment is to perform a system risk assessment. However, a risk assessment has not been
completed as part of a C&A for eOffer/eMod. Guidance for e-Authentication risk assessments
focuses on controls for authenticating users and does not directly apply to authorization controls,
which focus on the actions permitted within the system after a user has been authenticated to the
system. eOffer/eMod was designated at a level 3 assurance and it became the first GSA
application to utilize digital certificates provided through the Federal E-Authentication initiative.
While level 3 may be the correct assurance level for eOffer/eMod, key security decisions, such
as this, should be documented with a complete e-Authentication risk assessment. Management
controls should be in place to ensure that all necessary security controls including provisions for
authenticating users and authorizing access to sensitive information contained in eOffer/eMod
are properly documented.

Web Application Security Controls Not Adequately Considered

Necessary web application security controls were not adequately considered prior to the
deployment of eOffer/eMod. Due to inherent risk with web applications, special security
considerations are needed to protect against threats such as Cross-site Scripting and Structured

7
  FY 2005 Office of Inspector General FISMA Review of GSA’s Information Technology Security Program Report
Number A050174/O/T/F05024, September 21, 2005
8
  OMB M-04-04 E-Authentication Guidance for Federal Agencies, December 16, 2003.
9
  NIST Special Publication 800-63 Electronic Authentication Guideline, April 2006.



                                                    10
Query Language (SQL) Injection that can compromise the integrity and availability of the
system, the confidentiality of data contained within the system, or exploit system users. Specific
web application vulnerabilities were discovered within eOffer/eMod by a system user in
December 2005. This security incident resulted in eOffer/eMod being shut down for six days
while the security of the system was assessed and vulnerabilities were repaired. The incident
was also reported to the United States Computer Emergency Readiness Team, and system
security officials have taken steps to further address the reported vulnerabilities. The FAS CIO
has utilized a tool for an automated source code review of eOffer/eMod that includes limited
testing of vulnerabilities identified in the Open Web Application Security Project (OWASP) Top
Ten Most Critical Web Application Security Vulnerabilities. Our follow-up tests of technical
controls verified that the reported weaknesses have been corrected. A complete Certification and
Accreditation would include an assessment of web application security controls, as required by
GSA’s IT Security Policy, and is needed to ensure that improved security is maintained as new
risks are introduced with system enhancements and changing cyber security threats.

                                         CONCLUSION

GSA has implemented eOffer/eMod as the paperless means to streamline the contract award and
modification process. However, most offers and modification requests are still being submitted
on paper rather than electronically through these important web applications as expected. Close
monitoring of usage rates for eOffer/eMod is needed to address the causes of low system
utilization in support of GSA’s goal is to reduce the time it takes for contractors to obtain a basic
GSA schedule contract. Although eOffer was expected to streamline the contract award process,
contract awards made on electronic offers are taking longer to process than awards made on
paper offers. Because it is taking longer to award contracts on electronic offers than it does to
award contracts on paper offers, we believe that improvements to the eOffer system are needed
to support contract professionals in increasing electronic offer processing.                Contract
professionals have indicated that issues with system functionality have hindered their ability to
process electronic offers in a timely manner. Further, specific performance measures for
eOffer/eMod needed to assess customer satisfaction and system performance have not been
established. While specific technical security control weaknesses for eOffer/eMod, which
resulted in application vulnerabilities affecting the confidentiality and integrity of the system
have been addressed, necessary security documentation and processes remain incomplete.
Taking constructive steps to improve eOffer/eMod will better position GSA for success with the
planned SWS initiative to automate and streamline the entire MAS contract award process.


                                    RECOMMENDATIONS

We recommend that the Commissioner, Federal Acquisition Service, with the assistance of
appropriate personnel responsible for eOffer/eMod, take the following actions:

   1. Closely analyze eOffer/eMod usage rates and develop strategies to address the causes of
      low usage.




                                                 11
   2. Address system and process concerns raised by contract professionals to improve
      electronic offer processing times and ensure that the system addresses evolving agency
      needs and requirements.

   3. Develop an eOffer/eMod business case or update the FSS-19 business case to include
      system specific performance goals and measures for monitoring actual performance
      compared to expected results.

   4. Ensure that system security controls are maintained to include:
         a. Completion of the eOffer/eMod Certification and Accreditation (C&A) in
             accordance with GSA CIO IT Security Policy and procedures.
         b. Documentation for key security decisions and processes related to the system.
         c. Development of a proactive approach for identifying and addressing web
             application security weaknesses.

                                 MANAGEMENT RESPONSE

We met with Federal Acquisition Service (FAS) personnel responsible for eOffer/eMod,
including the Director of the Contract Management Center (FXC) and the FAS Chief
Information Officer to discuss the results of our review and received updated information prior to
issuing the draft report. We have also received written comments from the Commissioner of
FAS, which are provided in Appendix B. We have carefully considered all comments provided
by FAS with this report and the FAS Commissioner has concurred with the findings and
recommendations presented. Written comments provided by the FAS Commissioner indicate
that FAS will take actions aimed at addressing the risk areas identified for this system. Ongoing
or planned management actions to address risks include FAS: (1) embarking on corrective
strategies, including monitoring use, obtaining customer feedback, and increasing employee
training, (2) improving the communication process between systems personnel and the
acquisition centers, (3) developing a business case to determine appropriate shared performance
measures for eOffer/eMod, and (4) completing the eOffer/eMod Certification and Accreditation
(C&A) and other security controls.

                                   INTERNAL CONTROLS


Our overall objective for this review was to determine: Are eOffer/eMod realizing expected
benefits, including delivery of functional, managerial, and user requirements for the system?
Have sufficient security controls been designed and implemented with eOffer/eMod? If not,
what improvements are needed to better manage risk with the system? We conducted a limited
review of internal controls for eOffer/eMod as outlined in Government Accountability Office
standards. We focused our review on management, operational and technical controls for
eOffer/eMod, as well as user satisfaction. The Results of Audit and Recommendations sections
of this report state in detail the need to strengthen specific managerial, operational and technical
controls with eOffer/eMod. Our review did not include a detailed analysis of all controls or
capabilities within eOffer/eMod.




                                                12
              REVIEW OF EOFFER/EMOD, GSA’S ELECTRONIC
            CONTRACT PROPOSAL AND MODIFICATION SYSTEM
                  REPORT NUMBER A060149/Q/T/P07002

                     eOffer/eMod Timeline of Select Activities


Jun 01    Blanket Purchase Agreement Statement of Work issued for FSS Applications
          Maintenance and Enhancement
Jan 03    eOffer/eMod project plan developed
Jan 03    eOffer/eMod development begins
Jul 03    Requirements document for eOffer/eMod prepared
Apr 04    eOffer/eMod beta testing conducted
Apr 04    eOffer/eMod security plan released
Apr 04    Interim Approval to Operate (IATO) eOffer/eMod system in initial operating
          capability letter signed by the FSS CIO. The letter states that eOffer/eMod can be
          operated in Beta and initial production mode for a period of six months contingent
          upon a list of security controls that must be implemented.
May 04    eOffer goes on-line
June 04   eOffer/eMod combined with FSS-19 Certification and Accreditation package
July 04   eMod goes on-line
Aug 04    Date on the revised version of Task Order #4 – Order Processing Statement of
          Work (eOffer/eMod is covered under this Task Order)
Oct 04    Implementation due date for security controls listed in the IATO letter dated April
          04
Oct 05    User satisfaction surveys are sent out to GSA contracting officers.
Dec 05    Security flaw in eOffer reported to the GSA OIG hotline. Hotline complaint
          alleges that the system allows unauthorized parties to view and modify corporate
          and financial information submitted by vendors.
Jan 06    eOffer/eMod taken offline to address hotline complaint allegations
Jan 06    SecureInfo security testing report released. The report found that the security
          vulnerabilities identified in the hotline complaint had been removed.
Oct 06    Planned implementation of the Acquisition Desktop, a tool to be used by
          contracting officers to create/review solicitations, review offers, etc.




                                          A-1
  REVIEW OF EOFFER/EMOD, GSA’S ELECTRONIC
CONTRACT PROPOSAL AND MODIFICATION SYSTEM
      REPORT NUMBER A060149/Q/T/P07002

       GSA FAS Response to Draft Report




                     B-1
B-2
B-3
                          REVIEW OF EOFFER/EMOD, GSA’S ELECTRONIC
                        CONTRACT PROPOSAL AND MODIFICATION SYSTEM
                              REPORT NUMBER A060149/Q/T/P07002

                                              REPORT DISTRIBUTION

                                                                                                                      Copies

Commissioner, Federal Acquisition Service (Q) .............................................................3

GSA Chief Information Officer (I) ..................................................................................2

Office of the Chief Information Officer (QI), Federal Acquisition Service ....................2

Director, Contract Management Center (FXC) ...............................................................2

                                                                                                             Electronic Copies

Director, IT Acquisition Center (FCI) .............................................................................1

Director, Management Services Center (10FT)...............................................................1

Director, Services Acquisition Center (FCX)..................................................................1

Management Control and Audit Liaison, Program Management and
Administration Division (FPP) ........................................................................................1

Audit Liaison, Office of the Chief Information Officer (I) .............................................1

Audit Follow-up and Evaluation Branch (BECA)...........................................................1

Assistant Inspector General for Auditing (JA) ................................................................1

Audit Operations Staff (JAO) ..........................................................................................1

Administration and Data System Staff (JAS) ..................................................................1




                                                                C-1
